<html>
<title> - IMPACTS OF EPA'S PROPOSED OZONE STANDARD ON MANUFACTURING AND UTILITIES</title>
<body><pre>[Senate Hearing 114-85]
[From the U.S. Government Publishing Office]






                                                         S. Hrg. 114-85
 
IMPACTS OF EPA'S PROPOSED OZONE STANDARD ON MANUFACTURING AND UTILITIES

=======================================================================

                             FIELD HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                    SEPTEMBER 1, 2015--COLUMBUS, NE

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                               
                               
                               
                               
 
                         U.S. GOVERNMENT PUBLISHING OFFICE
 96-922 PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                              
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 1, 2015
                           OPENING STATEMENT

Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     1

                               WITNESSES

Baker, Russ, Manager, Environmental and Regulatory Affairs 
  Division, Omaha Public Power District..........................    12
    Prepared statement...........................................    15

Kinter, John, Environmental Manager, Nucor Steel Nebraska........    24
    Prepared statement...........................................    26

Corbin, David E., Ph.D., Professor Emeritus, Health Education and 
  Public Health, University of Nebraska--Omaha; Fellow of the 
  American School Health Association; Affiliate Governing Council 
  Representative to the American Public Health Association from 
  the Public Health Association of Nebraska......................    30
    Prepared statement...........................................    32
    Response to an additional question from Senator Boxer........    39

Zimmerer, Mark, President and CEO, Norfolk Area Chamber of 
  Commerce.......................................................    54
    Prepared statement...........................................    56


IMPACTS OF EPA'S PROPOSED OZONE STANDARD ON MANUFACTURING AND UTILITIES

                              ----------                              


                       TUESDAY, SEPTEMBER 1, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                      Columbus, NE.
    The Committee met, pursuant to notice, at 10 a.m. on 
September 1, 2015, at the Fine Arts Center, Central Community 
College, 4500 63rd Street, Columbus, Nebraska, Hon. Deb 
Fischer, U.S. Senator from the State of Nebraska, presiding.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. The hearing will come to order.
    Good morning. I am very pleased to convene the Senate 
Environment and Public Works Committee for a field hearing 
which is titled Impacts of the Environmental Protection 
Agency's Proposed Ozone Standard on Manufacturing and 
Utilities.
    It's wonderful to host this hearing right here in Platte 
County, Nebraska, where the average unemployment rate is 3.24 
percent and a thriving manufacturing industry serves as the 
foundation for many surrounding local communities.
    I would also like to extend a special thank you to Central 
Community College for providing today's accommodations.
    Today we welcome a group of Nebraska stakeholders to share 
their perspectives on the Environmental Protection Agency's 
proposed rule to reduce the allowable concentration of ground-
level ozone from 75 parts per billion to between 65 and 70 
parts per billion.
    Today's hearing allows us to explore this issue in depth 
and determine the impacts this proposal will have on Nebraska's 
families, businesses and utilities.
    The EPA's proposal has been called the most expensive 
regulation of all time. Regardless of one's view on this 
proposal, we can all agree the American people deserve to know 
the real cost of this regulation.
    Additionally, it is unclear whether the new standard 
provides any real health benefits. There are also serious flaws 
with the EPA's methods and modeling for the proposal.
    For example, the EPA did not consider personal exposure to 
ozone, which is the concentration people actually breathe in 
when setting the standard. Instead, the agency used outdoor 
monitoring data that significantly overestimates the risk.
    Furthermore, the EPA's own assessment indicates that 
lowering ozone concentrations would actually result in more 
deaths in some instances. This alarming result either shows a 
stricter standard would not achieve its objective or that there 
are serious problems with the EPA's methodology.
    While questions remain about the scientific evidence used 
to justify the EPA's proposal, there is no question that this 
new standard would be economically devastating. A stricter 
ozone standard would put 57 Nebraska counties in nonattainment. 
This includes rural counties that have less than one person per 
square mile.
    This rule would also expose urban areas like Omaha, which 
currently complies with Federal clean air standards, to harsh 
regulations that will stifle new and existing industry growth, 
as well as impede transportation infrastructure improvements.
    Moreover, the EPA's proposal would require power plants and 
industrial facilities across Nebraska to install expensive 
ozone control equipment, limit production or buy offsets, which 
would stifle economic growth.
    This means that our citizens, Nebraska is the only 100 
percent public power State in the country, and this means that 
our citizens own the electricity.
    The additional compliance costs imposed by this proposed 
rule would be passed down to small businesses, it would be 
passed down to families and it would result in a $370 drop in 
average household consumption per year.
    Nebraskans value clean air. Our businesses and utilities 
take seriously their role in protecting air quality. However, 
many communities are still struggling to achieve the standards 
that were set in 2008. Stricter standards would put an 
additional burden on communities across our State. In some 
cases, due to background ozone levels, attainment would be 
virtually impossible to attain.
    I have serious concerns about imposing additional rules, 
regulations and permitting requirements on our jobs, our 
Nation's job creators, our electricity providers and our 
families. We should not be in the business of creating 
unnecessary regulations; instead, we need to explore policy 
options that promote growth.
    I am entering into the record comments submitted by the 
Nebraska Department of Environmental Quality, the Omaha Public 
Power District and the Norfolk Area Chamber of Commerce. Each 
set of comments states that the current ozone standard of 75 
parts per billion should be retained.
    Additionally, I am also submitting to the record testimony 
from Dr. Bryan Shaw, he is the commissioner of the Texas 
Commission on Environmental Quality who provided testimony for 
the committee hearing on this topic last December. He states 
that EPA's process of setting ozone standards has not 
scientifically proven that further lowering of the ozone 
standard will fail to provide any measurable increase in human 
health protection.
    Today's panel represents diverse perspectives on the effect 
of the proposed rule to lower the ground-level ozone standard. 
I am eager to hear further details from our panelists on the 
challenges that each industry and business will face if and 
when the EPA finalizes this proposed rule.
    Today's hearing will begin with a witness who can speak to 
the importance of providing affordable and reliable electricity 
to our Nebraska ratepayers. Russ Baker is the manager for the 
Omaha Public Power District's Environmental and Regulatory 
Affairs Division. Mr. Baker plans, organizes and directs OPPD's 
environmental compliance programs and related regulatory 
matters across the district's nuclear, coal, natural gas and 
ever increasing renewable generation fleet.
    Mr. Baker has been with OPPD since 2000 and has worked in 
environmental affairs for nearly a decade. In addition to his 
tenure at OPPD, Mr. Baker has also served on the Board of 
WasteCap Nebraska, a non-profit organization dedicated to 
helping businesses and communities in Nebraska reduce and 
eliminate waste in Nebraska.
    Russ, I am very eager to hear how this proposed rule will 
impact our public power utilities, please begin your testimony.
    [The referenced comments follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
STATEMENT OF RUSS BAKER, MANAGER, ENVIRONMENTAL AND REGULATORY 
         AFFAIRS DIVISION, OMAHA PUBLIC POWER DISTRICT

    Mr. Baker. Thank you, Senator Fischer.
    Good morning. Thank you for inviting me to testify. My name 
is Russ Baker, and I am the manager of Environmental and 
Regulatory Affairs at Omaha Public Power District.
    I am here testifying today on behalf of the Nebraska Power 
Association. I would like to take this opportunity to commend 
you for your hard work in the support of our association 
members throughout the State of Nebraska. We stand ready to 
continue to work with you to maintain and improve Nebraskans 
access to affordable, reliable and environmentally sensitive 
electric power.
    The Nebraska Power Association is comprised of the 167 
utilities that produce and deliver electricity to Nebraskans. 
We are a voluntary organization representing all segments of 
Nebraska's power industry, municipalities, public power 
districts, public power and irrigation districts and 
cooperatives which are engaged in generation transmission and 
distribution of electricity within our State.
    Nebraska is the only State in the U.S. where every home and 
business is served by a publicly controlled utility. Publicly 
owned utilities exist to serve customers. There are no 
stockholders and thus no profit motive. Public power electric 
prices do not include a profit. Nebraskans utilities focus 
exclusively on keeping electric rates low and customer service 
high.
    Today I will discuss the Nebraska Power Association's view 
of the EPA's proposal to update the air quality standards for 
ground-level ozone.
    On November 25th of 2014, the EPA proposed to strengthen 
the National Ambient Air Quality Standards or ground-level 
ozone. EPA is proposing to update both the primary ozone 
standard to protect public health and the secondary standard to 
protect the public welfare. Both standards would be an 8-hour 
standard set within a range of 65 to 70 parts per billion.
    Ozone is a pollutant that has respiratory health effects in 
humans and also impairs plant growth and damages crops. It is 
produced when emissions nitrogen oxides and volatile organic 
compounds react in the presence of sunlight.
    Controls on nitrogen oxides and volatile organic compound 
emissions from vehicles, power plants and other sources have 
enabled many U.S. counties to meet the 75 parts per billion 
standard, but the number of counties in nonattainment status, 
currently at 227, would jump to 358 or 558 if the standard is 
revised to 75 parts per billion or 65 parts per billion 
respectively.
    In the State of Nebraska, should the standard be set less 
than 68 parts per billion, the counties of Knox and Douglas 
would likely be classified as nonattainment, impacting 8,605 
and 535,556 people respectively based on 2013 estimates.
    The potential impact of these designations can be found in 
a study by NERA Economic Consulting that was commissioned by 
the National Association of Manufacturers. The study estimated 
that an ozone standard of 65 parts per billion could cost the 
economy $140 billion per year, eliminate 1.4 million job 
equivalents annually and cost the average U.S. household up to 
$830 per year in the form of lost consumption.
    We are hopeful that the EPA also considered the adverse 
effect a lower ozone standard may have on low income households 
and whether the possible benefits of lower ambient ozone levels 
offset the possible harmful effects of unemployment or having 
less disposable income to purchase necessary goods and services 
such as groceries, medicine, obtaining proper medical care or 
the ability to afford electricity which is needed for comfort, 
security, cooking and overall well-being.
    While the Nebraska Power Association is supportive of 
ambient air quality standards that are protective of public 
health, we are also concerned with the ramifications of the 
proposed more stringent ozone NAAQS.
    The impacts of a lower ozone standard in the potential 
designation of Nebraska's largest population center, the city 
of Omaha, as nonattainment for ozone, will have significant 
economic impacts on these areas and the State as a whole.
    With significant economic and job loss impacts of a tight 
ozone standard, we feel the EPA reconsider the ultimate benefit 
of finalizing an ozone standard lower than the current 75 parts 
per billion standard.
    EPA's own analysis indicates that significant reductions in 
ozone levels will be achieved absent a new ozone air quality 
standard by implementation of a number of other EPA regulations 
including the Cross-State Air Pollution Rule and Regional Haze 
Regulations. As such, the substantial costs associated with 
large sections of the country being designated nonattainment 
for ozone will needlessly be levied on those communities and 
States, while EPA already has regulations in place that will 
act to reduce ozone concentrations to the levels anticipated in 
the proposed rule.
    It seems a rational approach would be to maintain the ozone 
standard at the current level, and allow other EPA regulations 
to act to lower ambient ozone levels. EPA could then revisit 
the issue during the next 5-year air quality standard review to 
assess the progress made in lowering ozone levels and determine 
if setting a lower ambient air quality standard is required as 
further incentive to reduce ozone levels.
    Alternatively, if EPA determines that a newer lower ozone 
standard is required, the Nebraska Power Association suggests 
that EPA set the standard at 70 parts per billion and write the 
final rule such that implementation of the standard has the 
least economic impact on the country as possible.
    EPA has already conducted modeling and an assessment of 
future ozone levels under current and proposed regulations and 
determined that ozone levels will drop significantly. Because 
EPA analysis shows that a majority of the country will achieve 
compliance with a lower ozone standard without any area-
specific actions, at the discretion of the State involved, the 
final rule should allow for EPA analysis to substitute for the 
traditional requirements associated with the nonattainment 
designation.
    There should be no need for a detailed analysis to form a 
plan to achieve compliance, no need for area-specific actions 
by existing sources of emissions and no need for the area to be 
subject to the stringent nonattainment new source review 
permitting requirements that may act to stunt economic 
development.
    This approach will allow for achievement of the ambient 
ozone goals while maintaining and minimizing the costs.
    In summary, the Nebraska Power Association believes that 
the most prudent approach to attaining lower ambient ozone 
levels, without imposing a high cost on the country's economy, 
is to leave the current ozone standard in place and allow the 
impacts of other regulations EPA is implementing to act to 
lower ambient ozone concentrations, as EPA has determined they 
will.
    Alternatively, if it is determined that a lower standard is 
required, the Nebraska Power Association believes that a 
standard set at 70 parts per billion is appropriate and 
implementation of the standard should allow States to use EPA's 
analysis and modeling as a remedy, or part of the remedy, for 
any area that is showing nonattainment with the new standard.
    Again, thank you for the opportunity to appear today and I 
would be happy to answer any questions you might have for me.
    [The prepared statement of Mr. Baker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Fischer. Thank you Mr. Baker.
    Next I would like to welcome John Kinter. He is the 
environmental manager of Nucor Steel which is located in 
Norfolk. Mr. Kinter has over 18 years of experience in 
environmental affairs, a graduate of the University of 
Nebraska's Environmental Studies Program. He has also served in 
the Nebraska Department of Environmental Quality as an 
environmental specialist.
    We are very fortunate to have someone testify today who has 
as much experience with implications of environmental 
regulations as you do, sir. So please begin your testimony.

 STATEMENT OF JOHN KINTER, ENVIRONMENTAL MANAGER, NUCOR STEEL 
                            NEBRASKA

    Mr. Kinter. Thank you, Senator.
    Senator Fischer, on behalf of our more than 1,000 Nebraska 
teammates and our over 23,000 teammates across the country, 
thank you for the invitation to testify today on the 
Environmental Protections Agency's proposed standard for 
ground-level ozone.
    I am John Kinter, environmental manager of Nucor Steel 
Nebraska in Norfolk. Nucor Corporation is the largest steel 
producer in North America as well as the largest recycling.
    In order to put into context the impacts of the 
administration's proposed ozone standard, I would like to take 
a minute to describe briefly the current state of the global 
steel industry.
    For the past 18 months, steel imports have been surging 
into the United States at record levels. Our market is 
currently the strongest for steel demand which is attracting 
these imports. However, many of these steel imports are only 
competitive because they are illegally dumped or subsidized.
    All too often, foreign governments provide their steel 
companies with substantial financial support, in violation of 
international trade laws.
    As a result, U.S. steel makers are not benefiting from a 
stringer U.S. economy. In fact, thousands of steel jobs have 
been lost this year because of the impact unfairly traded 
imports are having on our market.
    The effect of these job losses ripple beyond our industry 
since every one steel job supports an additional seven jobs in 
America.
    In this difficult global steel market, any regulatory 
proposal that threatens to greatly increase our cost is of 
concern. Margins are already tight. By some estimates, the 
proposed ozone standard could be one of the costliest 
regulations ever.
    Nucor operates 24 steel mills across the country. Today 
only one of those steel mills is in an area designated as being 
in nonattainment for ozone. Should the EPA decide to set a new 
standard at the lower end of the proposed range, Nucor will 
potentially have 19 steel mills in nonattainment areas, 
including our mill here in Nebraska. Going from 1 to 19 mills 
in nonattainment areas would be a drastic and costly change.
    Lowering the ozone standard to 65 or even 70 parts per 
billion, would make it difficult to expand or build new 
industrial facilities. Companies wanting to build or expand 
will be faced with an expensive permitting process and be 
forced to install costly emission reduction controls. The EPA 
has acknowledged that existing technology will not be 
sufficient to achieve the level of reduction it is proposing. 
This puts companies in a difficult spot. We are being asked to 
make significant emission reductions, but the technology to 
achieve then does not exist.
    Increased costs for emission control technology would not 
be the only hit to our bottom line. Nucor will also face 
increased energy prices as energy producers pass their 
compliance costs on to their customers.
    Energy represents 20 percent or more of the cost of making 
a ton of steel. As I've already mentioned, steel companies 
compete against foreign steelmakers that receive subsidies from 
their governments, including energy subsidies.
    To remain competitive, the steel industry needs global, 
reliable energy. The proposed ozone standard will make an 
already difficult competitive environment for American 
steelmakers that much worse.
    The proposed rule will also hurt economic development for 
communities in Nebraska and around the country. Lowering the 
ozone standard will reduce investment, especially for the 
manufacturing sector which provides high-wage jobs. The timing 
couldn't be worse. Low energy prices make the U.S. an 
attractive place for manufacturing, but reducing the ozone 
standard will make building new facilities much less likely. 
Nothing dries up business investment faster than uncertainty.
    Nucor believes the 2008 ozone standard of 75 parts per 
billion should be fully implemented and the environmental and 
health benefits measured before considering lowering the 
standard again.
    EPA data shows the ozone precursor emissions have been cut 
in half during the last 10 years. Full implementation of the 
2008 standard will result in additional remission reductions. 
Based on these facts, we believe it is unnecessary to lower the 
ozone standard at this time.
    The U.S. is the one economic bright spot globally right 
now, let's not jeopardize this position by moving ahead hastily 
to implement a new ozone standard before we have even fully 
implemented the previous one. Thank you.
    [The prepared statement of Mr. Kinter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Fischer. Thank you.
    Next we have Dr. David Corbin, a professor emeritus of the 
Health Education and Public Health at the University of 
Nebraska in Omaha.
    He is a fellow of the American School Health Association, 
as well as the representative of the Affiliate Governing 
Counsel to the American Public Health Association from the 
Public Health Association of Nebraska.
    I would note that as is customary for Senate Environment 
and Public Works Committee hearings, we worked in a bipartisan 
matter to select witnesses, and I welcome Dr. Corbin to begin 
your testimony when you are ready. Nice to have you here.

STATEMENT OF DAVID E. CORBIN, PH.D., PROFESSOR EMERITUS, HEALTH 
  EDUCATION AND PUBLIC HEALTH, UNIVERSITY OF NEBRASKA--OMAHA; 
  FELLOW OF THE AMERICAN SCHOOL HEALTH ASSOCIATION; AFFILIATE 
GOVERNING COUNCIL REPRESENTATIVE TO THE AMERICAN PUBLIC HEALTH 
   ASSOCIATION FROM THE PUBLIC HEALTH ASSOCIATION OF NEBRASKA

    Mr. Corbin. Thank you for the opportunity to present before 
you today. As you heard, I'm Dr. David Corbin from University 
of Nebraska in Omaha, and you already heard my other 
credentials.
    My testimony will be both professional and personal since I 
also suffer from asthma. Since the main focus of this hearing 
is the impact of ozone standards on manufacturing industry, 
electric utilities and other stakeholders, I would first like 
to draw attention to another public health issue that I worked 
on to protect the public's health.
    The issue was to the creation of smokeless environments 
including bars and restaurants. Many business owners testified 
about how they would go out of business if the law passed. The 
law did pass, business flourished and health improved. In 
short, what is good for health is good for business.
    The Wellness Councils of America founded right here in 
Nebraska is one of the Nation's largest and most respected 
organizations for promoting healthy work sites.
    They believe that the workplace is an ideal setting to 
address employee health and well-being. They also believe, as 
does any health-related organization, that prevention is better 
and less expensive than treatment.
    A reduced ground-level ozone standard is a known method of 
prevention. The American Public Health Association and the 
American Lung Association are two of the countless health-
related organizations that support a health protective standard 
for ozone.
    A stronger ozone standard will prevent deaths, hospital 
admissions, asthma attacks and days missed at work and school. 
It is society's duty to protect the most vulnerable, of which I 
am included by virtue of being an older adult, having asthma 
and being a person who desires to exercise outside.
    Other vulnerable groups are children, people with lung and 
cardiovascular conditions and even healthy adults who work in 
the outdoors.
    Imagine the dilemma of a public health profession who has 
spent much of his or her career promoting exercise to improve 
health, who then has to advise people not to exercise outside 
because of high ozone levels.
    Businesses, including those testifying here today, rightly 
promote safety and health. What business would want to have 
their own workers or their workers' families exposed to a known 
health hazard, especially since it can save the company money 
and health care costs and missed workdays. And since we already 
have effective methods of reducing ozone levels.
    Nebraska's blessed with an abundant wind and solar 
resources that when exploited can help to keep ozone levels low 
and produce energy without adding more carbon dioxide to the 
atmosphere.
    The world just experienced the hottest July in recorded 
history. High temperatures exacerbate ozone levels. The world 
successfully addressed our other ozone problem, the hole in the 
protective upper atmosphere via a worldwide effort that 
resulted in the banning of chlorofluorocarbons. Ground-level 
ozone is the opposite of protective, but it is a problem that 
can be solved.
    The Lancet, one of the most prestigious medical journals in 
the world, published a report on June 23, 2015, in which they 
said, ``Ground-level ozone and particulate air pollutants are 
elements that will be most affected by climate change. Climate 
change is predicted to elevate ground-level ozone levels over 
large areas of the U.S. and Europe.''
    If the threat to human health isn't enough, the very heart 
of our Nebraska agricultural economy is threatened by ground-
level ozone. A study published in the journal of Atmospheric 
Environment said this: ``Our results suggest that ozone 
pollution poses a growing threat to global food security even 
under an optimistic scenario of future ozone precursor 
emissions. Further efforts to reduce surface ozone 
concentration thus provide an excellent opportunity to increase 
global grain yields.''
    This information alone should be a call for strict 
standards on ground-level ozone. My own physician here in 
Nebraska, Dr. Linda Ford, who would have liked to be here to 
testify today but couldn't, she treats me for asthma and she's 
been the president of American Lung Association. She summed up 
the ozone situation succinctly: ``Every little bit we decrease 
the levels of ozone, we'll save on health care costs. So where 
do you want to spend your money? If you want to take care of 
your people and prevent disease, you spend it on decreasing 
ozone.''
    I and millions of other Americas would love to breathe 
easier and spend less money on my asthma medication. Thank you.
    [The prepared statement of Mr. Corbin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Fischer. Thank you very much, Dr. Corbin.
    Next we have Mr. Mark Zimmerer, president and CEO of the 
Norfolk Area Chamber of Commerce, a life-long Nebraskan Mr. 
Zimmerer has also served as the director of the Northeast 
Nebraska Child Advocacy Center, Faith Regional Health Services, 
an advocacy group dedicated to working to achieve child-focused 
approaches and child abuse and negligent cases.
    Mark, you are to be commended for your community service 
and working with abused and at-risk children.
    Prior to being selected as the Chamber's new president, Mr. 
Zimmerer served on the organization's board of directors. I am 
looking forward to hearing from you and I know you will offer 
great insight on how the proposed ozone rule will impact the 
small business community in Norfolk, Nebraska. When you are 
ready, please begin.

  STATEMENT OF MARK ZIMMERER, PRESIDENT AND CEO, NORFOLK AREA 
                      CHAMBER OF COMMERCE

    Mr. Zimmerer. Thank you. Thank you. Thank you, Senator 
Fischer, for having me testify today.
    I'm Mark Zimmerer, president and CEO of the Norfolk Area 
Chamber of Commerce. Representing our 650 businesses, in which 
Nucor is one, and we are deeply concerned about the harmful 
impact of the EPA's recent proposed rule to make ozone standard 
more stringent could have on a struggling economy. Ozone 
standards at the levels considered and EPA's proposal could 
push virtually the entire country into nonattainment.
    Where local communities face burdens in attracting and 
keeping commercial and industrial activity, not only vital to 
creating jobs, but also to providing tax revenue that supports 
important local services like public safety and education.
    We all value clean air. The managers and employees of the 
companies we represent, as well as their families, we all 
breathe the same air. We are proud that the emissions of ozone-
forming emissions have been cut in half since 1980, leading to 
a 33 percent drop in ozone concentrations.
    Moreover, EPA just updated these ozone standards just 6 
years ago. This country can expect to see even greater 
reductions in ground-level ozone as States make up lost ground 
in putting the current standards into effect.
    Indeed, States are currently committing substantial 
resources, both in time and money, toward achieving emission 
reductions under those current ozone standards. Yet despite 
over three decades of cleaner air and before States can catch 
up with the EPA's delays on implementing existing ozone 
standards, EPA is now proposing a new stringent standard 
between 70 and 65 parts per billion.
    In some areas, this proposed range is out or near the level 
of ground--background ozone that is naturally occurring or 
internationally transported pushing even remote counties far 
from industrial activities into nonattainment.
    According to EPA's own data, even the pristine Grand Canyon 
and Yellowstone National Park would fail proposed ozone 
standards.
    If finalized, EPA's proposed stringent ozone standards 
could limit business expansion in nearly every populated region 
in the States and impair the ability of U.S. companies to 
create new jobs.
    The Clean Air Act carries even stiffer consequences for 
nonattainment areas, directly impacting economic vitality of 
local communities and making it difficult to attract and 
develop business.
    Increased costs associated with restrictive and expensive 
permit requirements would likely deter companies from sitting 
new facilities in nonattainment areas.
    We cannot stand by and allow our economy to be collateral 
damage as a result of more unnecessary and unfunded 
regulations. Nonattainment designations will have profound 
impact on infrastructure development vital to the business 
community.
    Beginning 1 year from the date of nonattainment 
designation, federally supported highway and transit projects 
cannot proceed in nonattainment areas unless the State can 
demonstrate that the project will cause no increased ozone 
emissions. These restrictions do not disappear when an area 
finally comes into attainment. Instead, former nonattainment 
areas face a legacy of EPA regulatory oversight.
    Against these economic consequences, scientific 
uncertainties regarding the benefits of more stringent ozone 
standards have increased.
    Indeed, stringent ozone standards may have severe 
unintended consequences for public health. Indeed, stringent 
ozone standards may cause the increase of cost of goods and 
services, such as energy and decreasing disposal incomes. 
Regulation can inadvertently harm social economic status of 
individuals and thereby contribute to poor health and premature 
death.
    The Norfolk Area Chamber of Commerce believes these 
scientific uncertainties should better explored in order to 
best allocate resources in a manner that strengthens both the 
economy and environment.
    The need for balanced government policies and reasonable 
flexibilities has never been greater, and no single regulation 
threatens to disrupt this balance more than the EPA's ozone 
rule.
    The air is getting cleaner and current ozone standards need 
an opportunity to work. Therefore, in light of the economic 
hardship, reduction in funding for crucial civic services and 
uncertain benefits all related to the stringent ozone standard 
that EPA now is considering, the Norfolk Area Chamber of 
Commerce calls on the EPA to retain the existing ozone standard 
of 75 parts per billion. Standard for ground-level ozone. Let 
us meet these requirements before once again moving the target. 
Thank you.
    [The prepared statement of Mr. Zimmerer follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Senator Fischer. Thank you very much and I thank you all 
for your thoughtful testimony.
    It's clear that you and the groups you represent have 
strong appreciation for the importance of a healthy environment 
and strong driving communities here in Nebraska. But there are 
clearly some major issues with the proposed rule that would 
impact both rural and metropolitan areas of the State.
    I would like to open up this first question to all the 
members of the panel, if you would like to weigh in on it.
    In your view, how do we as Nebraskans ensure that our air 
quality is at the highest standard and how will this proposed 
rule impact efforts to safeguard our air quality? Do you think 
the costly top down Federal standard from Washington, DC, 
basically, is it a help or is it going to be a hindrance? Why 
don't we start with you, Mr. Baker.
    Mr. Baker. Thank you, Senator Fischer, for that question.
    I think, you know, from my perspective and I think you've 
heard, for sure Mr. Kinter and Mr. Zimmerer, speak about it, 
background levels of ozone are about half of what that standard 
is and it's influenced by a lot of different conditions that 
are beyond our control.
    For instance, when there is burning that done in Kansas in 
the Flint Hills, we get particulates in ozone that cross over 
into the State of Nebraska and cause us air quality problems.
    Global transport from Asia and from States that are west of 
Nebraska also factor into it as well.
    The Federal Government in the way I think that they're 
looking at this ozone standard in ratcheting down basically to 
a background of, will not allow any States that are going to be 
impacted to have any sort of economic development 
opportunities.
    I think as you heard Mr. Kinter talking, and I would 
wholeheartedly agree from a utility perspective, we're getting 
to the point right now where there is not a technology that's 
available that you can deploy to reduce the kinds of emissions 
that EPA is calling for. So it really is--it is a hindrance, 
and it's almost like we're at the law of diminishing returns on 
lowering a standard down a level that's almost immeasurable.
    The health impacts of it, I would--I would argue to some of 
Dr. Corbin's points that he's making are hard to measure. We 
don't have absolute data that shows a direct cause and impact, 
it's extrapolated across a whole population of a country and 
not looked at specifically on a county or city basis.
    The lowering of that standard I think is a hindrance to our 
Nation and to our communities as a whole. That would be my 
perspective.
    Senator Fischer. If I can follow up with you on that, you 
mentioned fires in the Flint Hills of Kansas and then you 
talked about States west of us and even overseas. We're seeing 
millions of acres burn west of us, and we've all seen the 
effect on the red sky in the morning and at night that we see 
all across the State. I've traveled all across the State this 
month, I can tell you that every part of Nebraska has been 
affected by those fires to the west of us.
    Is there anything in the proposed rules that would take 
that into account that would allow for flexibility for a 
natural occurring event that we as a State have absolutely no 
control over when they're measuring the parts per billion on 
this, or is it just--is it just strict and we would be in 
nonattainment and then how do we get out of nonattainment?
    Mr. Baker. Thank you, Senator, for that question.
    There are provisions that they speak about in the 
regulations where a State would be able to, more or less make a 
plea to EPA to say we've got certain conditions that are 
existing that are beyond the control that you can--that you 
should take into account.
    But the fact of the matter is, there are no real definitive 
boundaries on what they can do, it's subjective and up to the 
interpretation of EPA and the agreement of EPA on whatever--
whatever evidence or whatever sort of information that you 
bring forward from a State. That's the way that I understand 
that.
    It's not as--it's not as definitive as what is stated to 
the regulation, so there are provisions to do that.
    I would say most, or at least from a utility perspective, 
you probably view that as maybe being a little skeptical of 
how--of how they would interpret that and maybe apply that 
given the plethora of other regulations that we're facing in 
the utility industry for sure, I'm sure some of the other, if 
not all the other industries, in the State of Nebraska.
    Senator Fischer. OK, thank you.
    Mr. Kinter.
    Mr. Kinter. Yes, thank you. Mr. Baker hit on a lot of--a 
lot of good points that I would just echo for Nucor. And no one 
would disagree that we want to live in a prosperous and healthy 
community and have clean air. What Nucor is concerned about is 
the uncertainty.
    We're talking about specifically ground-level ozone and 
looking at a 65, 70 or keeping it at 75, there's uncertainty 
with that. We just don't know where this thing's going to 
eventually go. And to Mr. Baker's point about what's happening 
that's out of our control in Kansas, how is that really going 
to impact us when that can be a huge impact on raising the 
background levels which even tightens it even more for us.
    The permitting process that's already in place is 
effective. We believe the 75 parts per billion number is the 
right number right now. We're making significant progress to 
getting to that point and would challenge anybody to question 
the quality that we have here in Nebraska specifically on our 
air quality.
    The other point is that on the regulatory burden side is 
that we have to stay competitive. And in order to stay 
competitive on a global market, we're competing with countries 
that basically are cheating the system through manipulating 
currency and trading practices that are currently in place that 
are being allowed. And the more that we have these stringent, 
burdensome regulatory, and costly I might add, regulations, the 
harder it's going to be for us to compete. And where is the 
return on that?
    Again as I said, the health's important to us. We all work 
and live in these communities as well, that's part of our 
mission statement at Nucor, but there has to be a cost benefit 
analysis and were getting to the point of, as Mr. Baker said, a 
point of it just doesn't make any sense.
    Senator Fischer. Thank you. Dr. Corbin.
    Mr. Corbin. I agree about uncertainty. The uncertainty that 
I'm concerned about is when I'm going to have my next asthma 
attack or when my asthma is going to get worse.
    It would be hard for me to believe as a public health 
professional that all of these medical associations and public 
health groups that I've listed on the hand out are somehow 
conspiring against business. They are trying to make the 
country healthier and they are all of the belief that lowering 
the standards will do that.
    The--and by the way, I should point out conspire means 
breathe together, the original and that's what we should all be 
doing: We should all be breathing together, not working against 
each other.
    So there's ample evidence and usually we have what's called 
a precautionary principle and that it says when it's--when 
you're in doubt about when it's going to harm your health, you 
error on the side of good health.
    Senator Fischer. Thank you.
    Mr. Zimmerer.
    Mr. Zimmerer. Well, part of my resume you left off, I ran 
the wellness program at Faith Regional Health Services as one 
of my other duties----
    Senator Fischer. My apologies, my apologies.
    Mr. Zimmerer. Appreciate--I appreciate the doctor's 
comments on this, you know, but I'm also a Husker fan and you 
say, well, how is that related? Well, you know, when we talk 
about the new coach, Coach Riley isn't setting the team goal to 
reach the Super Bowl. Of course not. That's not attainable 
through the college system. So what they do is they set goals 
to win the Big 10 and then maybe win the national championship, 
but those are all attainable goals. Those are something you can 
put the team's efforts toward.
    This goal that they're setting now is unattainable and it's 
unrealistic and it's just going to put our businesses at risk, 
so I'll leave it at that.
    Senator Fischer. If I can follow up with you. I believe 
from the standard that was set in 2008, California basically is 
in nonattainment; do you know about that?
    Mr. Zimmerer. I do, yes.
    Senator Fischer. And they get, like, a waiver or something, 
is that right, for the next 20 years, and it's accepted that 
they will never attain the previous standard or the current 
standard that we have from 2008; is that correct?
    Mr. Zimmerer. Absolutely.
    Senator Fischer. What happens to California if we see the 
standard lower? Are we just saying, well, you couldn't meet the 
previous one, we know that, and we know you're never going to 
meet this one too? What happens?
    Mr. Zimmerer. And that is the concerning part, Senator, 
when we're talking about, you know, you're in a nonattainment 
area, we talk about critical infrastructure needs of our 
highway system, you know, possibly being at risk here, how is 
that fair that Nebraska is hindered by these restrictions and 
not some other State? These are----
    Senator Fischer. So California wouldn't have to--they 
wouldn't be affected by any of those restrictions even though 
they're in a nonattainment area, because they have this waiver 
basically 20 years right now, so they can continue to build 
roads, they can continue to build manufacturing plants even 
though they're never meeting the standards?
    Mr. Zimmerer. I believe EPA has yet to clarify that, but I 
believe if they are lifting the ban on the restrictions for 
California, then that would, yet, eliminate the violations.
    Senator Fischer. OK. Thank you.
    I have some questions for Mr. Baker. And I do thank you for 
your testimony and I'm very happen you're here today.
    As you mentioned, Nebraska's a hundred percent public power 
State. I happen to be very proud of the fact that Nebraskans 
own the electricity that we use. Do you believe that Nebraska 
and Nebraskans will be disproportionately affected by this rule 
because we are a public power State, and what actions are the 
utilities in the State going to have to take in order to meet 
the standard if it--if it is lowered to 65 parts per billion? 
What actions are going to have to be taken, and do you have any 
idea what the cost of that will be?
    Mr. Baker. Thank you for that question, Senator.
    You know, as a public power entity, I don't know that it 
would be fair to say that public power in and of itself would 
be singled out or have a disproportionate impact. I will go 
back to some of my testimony that says we have no profit margin 
that's built into our rate structure, so any and all costs on 
this regulation, and the myriad of other regulations, are a 
direct pass-through to our customer owners because of that.
    You know, you might be able to draw a conclusion and say 
at, you know, public power entities without a profit, it is--it 
is a direct impact to our customer owners, so in that way, you 
could, but I don't know that the----
    Senator Fischer. So basically, every Nebraskan's going to 
be paying more for electricity?
    Mr. Baker. They will pay whatever--well, whatever those 
utilities that are representing them need to spend more money 
in order to be in compliance with this particular rule, it will 
directly impact that bottom line.
    To some of your other questions on that, you know, 
logically and as we talked about before, you know, when you're 
facing a regulation and when something with the ozone they're 
looking at nitrogen oxides, I think it would be reasonable to 
assume the EPA is looking for any industries, in particular 
though electric generating companies and those facilities, to 
put in technologies that would control nitrogen oxides.
    I would say in most cases, almost all of the utilities in 
the State of Nebraska have deployed technologies to remedy 
that. We have put in catalytic reduction units, you know, much 
like a, you know, much like a catalyst on a car, you know, to 
control the emissions on many of our big units.
    We also deploy what they call low nitrogen oxide burners 
and technologies that do some things to reduce nitrogen oxides 
that way as well. Again, we're getting to a point where there 
wouldn't be much more that we could really do.
    I would also caution and bring to the forefront that half 
of the ozone that we're measuring comes from natural 
background. Of the half that's remaining, it's only a 
fractional part that's really coming from industry. The large 
majority of that remaining fraction is coming from 
transportation.
    It seems to me that a strategy would be better to focus on 
kind of the mobile sources much like in the State of 
California. Those are some of the reasons why those areas 
suffer from such huge attainment issues because they have so 
many people that are on the roads and that's why you see a lot 
of the California emissions on vehicles, they're different than 
the rest of the Nation. It's because of transportation.
    So it seemed with fuel, fuel efficiency standards and such 
like that, you can make more. You can get more bang for the 
buck than you would on limiting the economic development 
opportunities of whole parts of our country and whole parts of 
our State by reducing that standard. There would be very little 
on the industrial side that you could do to control some of 
those emissions.
    Senator Fischer. Are there discussions by the EPA to 
further reduce emissions from vehicles? Do you know or has the 
focus been on utilities and manufacturing with these rules?
    Mr. Baker. You know, my experience has been it's hard to 
say with EPA right now. We've--I've got my hands full just 
worrying about producing electricity in the myriad of 
regulations that we're facing on that front. And of course, 
we've just recently had the Clean Power Plan which is, you 
know, trying to do other things, you know, to the industry.
    So would they be looking at fuel efficiency standards, I 
think a reasonable person would say that they probably are 
looking at ways to ratchet that down.
    But I don't know if the fuel efficiency standards, how much 
they actually take credit for that in issues like ambient air 
quality standards with ozone. I'm not sure about that.
    Senator Fischer. OK. I would like to take a minute and 
highlight the--what you believe is a very robust energy 
portfolio that many Nebraska utilities are now incorporating 
and I commend our utilities for taking the initiative to 
introduce these new fuel sources like natural gas for utilizing 
renewable energy sources to produce electricity. I think a 
balanced energy portfolio is very, very important for all of us 
here in this State and in this country.
    And I also know that we are blessed that we have an 
abundance of natural resources in this country and they need to 
be managed correctly so that we can ensure domestic energy 
security as we move forward.
    Mr. Baker, I would ask if you can describe more about the 
impact that these proposed standards and if you want to throw 
in other EPA regulations, that would be fine, would have on our 
energy reliability and what are the potential costs that 
utilities face.
    You know, we as Senators, we always hear about regulations 
and most of the time the negative impact that they have on 
Nebraska families, so I would ask your opinion on that.
    Mr. Baker. Thank you, Senator. I appreciate that question 
and that perspective.
    You know reliability, as I stated in my opening remarks, 
is, you know, is critical to the success of utilities in the 
State of Nebraska. We want reliable, affordable and 
environmentally sensitive electric generation for our customer 
owners.
    Reliability, I would say would be impacted in some ways and 
it should be no surprise, I think to you, that, you know, the 
EPA has a concerted effort to try and reduce the dependence of 
coal fire generation in the United States. The regulations--an 
objective observer would say there's a whole-scale effort to 
try and limit the amount of electricity that's produced by that 
fuel source.
    A reduced ozone standard could have, when measured with all 
the other regulations that we're facing, have the impact of 
reducing our ability to generate electricity using coal. That 
added to all the other, you know, the Cross-State Air Pollution 
Rule, the Clean Power Plan, limitations that we have on coal 
ash of where we can bury it and what we need to do with it and 
how we need to measure on that and issues on water discharges 
and thermal issues and just the entire, you know, the entire 
list of different regulations that we face, really limit our 
ability to produce coal.
    Two of the utilities in the State of Nebraska have nuclear 
in their portfolios. Omaha Public Power District does. Nebraska 
Public Power District does. We're very proud to have that zero 
carbon producing generation in our portfolios, and many 
utilities have been--begun adding a lot of renewables into the 
mix as well.
    If you diminish the amount of coal fire generation that we 
have and only to our proximity to mines where we have very 
affordable transportation rates, you know, to use that coal and 
to generate electricity in a very clean manner with proven 
technologies, you know, to capture some of these contaminants, 
what you're left with are a lot more renewables, right.
    The Clean Power Plan is really pushing to bring more 
renewables into a portfolio. That's the tie-in to the 
reliability because the renewables aren't there all the time; 
solar is not there at night. Wind doesn't blow in July in the 
State of Nebraska, or in many parts of the country when it's 
very, very hot. So what do you do when you can't produce base-
load generation using our tried and true and clean, you know, 
coal fire generation and you have limited access to nuclear in 
these days, you have nothing left. You have some natural gas 
which we have in the State of Nebraska, but we need a huge 
amount of infrastructure build-out to bring a lot of natural 
gas, unlike maybe the State of Texas.
    So you would--that is where you would have the 
unreliability aspect, because you would need to have some base-
load generation to supply activity when the sun's not shining 
and when the wind's not blowing.
    And absent--absent having a build-out of natural gas or 
fossil reserves that you can rely on, that I think would be the 
tie into to the reliability.
    Senator Fischer. Statewide, could you tell me how much of 
our portfolio for electricity is a percentage that would be 
reliant upon a coal-fired plant? I've heard two-thirds; is that 
about what it is?
    Mr. Baker. I think somewhere a little more than 50 percent 
right now in its current state, but you may or may not be 
familiar, like at Omaha Public Power District, last year our 
board of directors made an announcement we're retiring three of 
the units. Three of the five units that we have at our North 
Omaha power plant.
    It wasn't a direct result of the Clean Power Plan, it 
wasn't a direct result of the Mercury and Air Toxic Standard, 
it wasn't a direct result of the Cross-State Air Pollution 
Rule. I'm just naming a couple, two or three right now, as an 
example; it was because of the myriad of regulations that we 
were facing where we looked and said that these units were not 
going to be viable and it wasn't economically feasible to 
invest a whole lot of money for their continued operation. And 
when we look to the future and, of course, our planning horizon 
is 15 or 20 years into the future, you know, we needed to make 
some certainty in decisions that we were making. So we last 
year made a decision to retire three units at our North Omaha 
power station.
    That will have a consequence of improving, you know, on an 
air quality emission profile that will be less air emissions 
coming from those units because the will no longer be in 
operation.
    Senator Fischer. How do you handle your base-load capacity 
then? If, I mean, you mentioned with renewables, if the wind 
doesn't below, you can't turn on the lights, there's no storage 
right now for the electricity produced in that way?
    Mr. Baker. Correct.
    Senator Fischer. So how are you going to manage--if we have 
a turnover really quickly, which I don't think is possible to 
see that happen very quickly, to close coal-fired electric 
plants, but if you do have a turnover, how do you handle base-
load capacity and what--what do you see, I guess, happening to 
the utility in the future then?
    Mr. Baker. So at Omaha, Nebraska Public Power District, I 
can tell you we had some excess capacity that was in our 
portfolio so we could take those units out of service, and keep 
in mind three units of the five is about half of the generation 
from that facility, so it's a little shy of 300 megawatts of 
generation that we were going to take out of or portfolio.
    That margin, we were still OK looking to the future from my 
company's perspective, I don't foresee us building another 
nuclear plant for baseload. Renewables, as I've already stated, 
are kind of there to fill in some gaps. With an inability to 
build any future coal-fire generation, the only thing that we 
would really have left to add for extra capacity would be 
natural gas combined cycle is where we would look to meet that 
gap. I would say that would.
    Senator Fischer. And you would have to fill that gap with a 
source like natural gas, correct?
    Mr. Baker. At some point you would have to build extra 
generating capability to take up the slack and to cover those 
times when renewables aren't there. And right now the only 
thing that's really left would be natural gas, in my opinion, 
and kind of looking at, you know, looking at the future right 
now in the short term, that's--that would probably be it.
    Senator Fischer. We had talked about a nonattainment 
designation and the impact that it may have. I would like to 
know since you represent OPPD, what impact do you think a 
designation of nonattainment would have on Omaha, how would 
that affect further development really in the metropolitan area 
of our State?
    Mr. Baker. Thank you, Senator.
    You know, as you have heard, I think it would be crippling. 
The permitting that you would need to undergo for bringing in 
any new sources, any new industries into the area would be 
massive and very expensive. Not to mention some of the 
unintended consequences that you would have.
    I know from first hand working with organizations like the 
Metro Area Planning Agency in Omaha metro area, we've been 
looking at this issue for over 5 years. Omaha Public Power 
District, the State of Nebraska and really even the State of 
Iowa, because this isn't--it would affect Omaha for sure and 
Douglas County and some of the surrounding counties, it would 
also effect Iowa, so the Iowa Department of Natural Resources 
has been involved.
    We have been in a partnership with some of those other 
groups to do what they call Little Steps, Big Impact. And so 
some of the consequences of nonattainment from the perspective 
of the inability to bring in other industries which are so 
vital to kind of the economic viability of those communities, 
but some of the simple things like the way that you would 
dispense your gasoline may have to change and some limitations 
that we would have on our ability to car pool, there might be 
local standards or State standards or maybe even a Federal, you 
know, through EPA imposed on us where you would have to do 
more, you know, more car pooling.
    Which, you know, on the surface would be a good thing, but 
there's also that negative impact of what kind of build-out you 
would need from a public transportation perspective, which we 
may not have the ability to do.
    But for the last 5 years, we've been trying to work to 
educate the communities of what these negative impacts would 
be, absent really any industrial impact, just on the lifestyles 
of people and try to encourage them to car pool when it made 
sense, try to encourage them to mow their lawns in the evening.
    There are a lot of unintended consequences of setting that 
standard too low which at this point, depending on where that 
level is, could really impact--could impact individuals and 
families in the community in very negative ways.
    Senator Fischer. Thank you very much for answering my 
questions; I appreciate it.
    Next, Mr. Kinter, you're up. Here we go. You mentioned the 
very difficult global environment that we're seeing with our 
steel companies now. I guess I would like you to expand on that 
a little bit and really how that's going to affect Nucor 
specifically, if you could, and how you're going to deal with 
your competition.
    Mr. Kinter. OK, first off, Nucor is never afraid of a 
fight, as long as it's on a level playing field.
    Senator Fischer. I've toured your plant, so tough people.
    Mr. Kinter. And that's what we talk about a lot is that 
we're not afraid to compete as long as it's on a level playing 
field.
    Senator Fischer. Exactly.
    Mr. Kinter. So I would start off with that and say that 
again, to what we have here in America versus the air quality 
in different parts of the world is completely different. And 
we're asked to continue to operate and be permitted under such 
regulatory burden, it's hard for us to compete.
    Again, not saying that the rules and regulations and the 
permits that are in place are for the right thing. We do agree 
we need to operate in a healthy and safe manner, but in order 
to stay competitive with the markets right now, and some of 
this understand is outside of the scope of the EPA; it has to 
do with the trading issues that of course we've talked publicly 
a lot about, I'm sure you're aware of as well.
    Just to put it in perspective--and Mr. Baker did a great 
job of covering as well--but our second largest input to making 
steel is energy. We are the largest fired electricity in the 
State of Nebraska, so as you can imagine our power bill is 
significant the way it is already.
    Our estimates are looking at 20 to 30 percent increase in 
electrical costs, specifically to this rule, and that's on not 
to mention the Greenhouse Gas Rules and the Clean Power Rule 
and things that are coming along the pipeline there as well.
    So to put it in perspective, we have 24 operating steel 
mills in this country, billions just for us specifically here 
in Nebraska, which multiply it by all our other plants. Again 
when our margins are so tight, as I mentioned in our testimony, 
that millions of dollars equates to less profit and less 
success for the company.
    Of course, we have a number of shareholders and folks that 
we need to continue to be profitable. And there are numerous 
examples of steel companies today, right now, that are shutting 
down because they're no longer profitable and successful. So we 
definitely have concerns with that.
    In regards to the renewable discussion, I would just add 
that for Nucor, we have many customers that are into their own 
business as well, so we are supportive of that. Under two 
circumstances: One, it needs to be reliability, and it also 
needs to be economical. Those are the two things that we should 
be looking at when we're looking at renewables.
    Right now, because of coal and what it is, specifically for 
Nebraska that's a huge baseload for us. And we are concerned 
about the new born in the renewable energy business, where is 
the reliability going to be and of course the costs associated 
with it.
    Senator Fischer. Can you tell me the difference in how you 
produce steel as a company here in the United States and 
compare it to how steel is produced overseas and what you can 
tell us about the environmental impact on both of those cycles?
    Mr. Kinter. Sure. Sure.
    Nucor, hundred percent of the steel that Nucor makes is 
with the electric arc furnace technology----
    Senator Fischer. Tell us, how does that work, though.
    Mr. Kinter. We use electricity to basically create an arc 
in our furnace which melts the steel at approximately 300 
degrees Fahrenheit, that's the electric arc furnace technology. 
Nucor basically invented that and it started in Europe in the 
early 1960s, and Nucor kind of took that and expanded upon it. 
We now produce almost 20 million tons of steel in the United 
States all using electric arc furnace technology.
    In doing so, our greenhouse gas emissions are a third to 
two-thirds less than what we would call an integrated facility 
which uses the natural iron ore out of the ground to produce 
steel. So significantly much more energy intensive process, 
because you're taking it from the ground and produce the steel, 
where a lot of the process has already happened when we take 
the scrap metal and put it to electricity.
    So environmentally, our impact is much less. Obviously, 
we're recycling a product that otherwise would have ended up in 
a landfill. And that's a success story on the scrap side as 
well because, you know, there are still many countries that 
don't have a way of recycling scrap. We have that here. We have 
a great network of scrap handlers and dealerships throughout 
the country that scrap has become a great example of how 
recycling should work. I mean, we've always said we were green 
before green was really cool, because we've been doing it since 
the 1960s.
    Senator Fischer. Good. Your comment that the proposed rule 
will hurt economic development, and you said reduce investment 
in communities in Nebraska that that's disturbing to hear. Can 
you talk about how the manufacturing sector typically grows 
around one of your steel mills and do you see additional 
facilities develop around your steel mill, what about jobs, you 
know, just the effect on a local area with say one of your 24 
plants?
    Mr. Kinter. Sure. Sure. With every one steel job, seven 
more are created in the community. And when you look at various 
partners that we have specifically in Norfolk, we have a number 
of facilities and industries have grown around Nucor and buying 
various pieces of steel or supplying us with inputs that we 
need for making steel.
    One thing to point out, and we focused a little bit on 
Omaha and the concerns there, but one thing to consider is I 
would--we would consider Norfolk to be in a rural part of the 
State, more or less. And when it comes to ozone and how we're 
going to get to the levels EPA is proposing is through two 
ways: is through offsets and it's through technology.
    Senator Fischer. You said the technology's not there to 
reach, to reach the proposed rules. Did I hear that correctly 
in our opening?
    Mr. Kinter. For the steel-baking electric arc business, the 
SER technologies that Mr. Baker talked about are out there. We 
have yet to find somebody that can put a CR system on an 
electric arc furnace. As you've seen the facility before that 
would be very challenging to do that.
    It's not there yet, could it be there in 10 to 20 years, 
possibly. Offsets is the way that Nucor would have to go and in 
looking at a rural community, where do we get the offsets from? 
There isn't a whole lot of manufacturing, although we're proud 
of our manufacturing areas that we have in Norfolk, there are 
some, but when you look at Nucor and what we do and where we 
need to get those offsets.
    Technology isn't there yet, and there really aren't offsets 
for us to grow. So to your point about growing in Norfolk and 
bringing in more business, quite honestly the last thing from 
the environmental perspective what we would probably want to do 
right now is try to attract somebody that produces a lot of 
NO<INF>x</INF> and volatile organic compound emission in 
Norfolk because that would keep us from growing.
    Senator Fischer. Under the proposed rule, do you have to 
find an offset in a local community within a certain radius? 
You said the offsets aren't available in Norfolk, can you 
look--can you look elsewhere? Can you look anywhere in the 
State? Can you look in other States or is it specific to a 
region that you're located in? I don't know the answer.
    Mr. Kinter. There is some flexibility in that. Again, it's 
how it's interpreted and how even the State of Nebraska would 
look at that and how the different areas are set up when a 
nonattainment actually comes in place.
    And again, speaking on--to the uncertainty about 65 
percent, 70, that's a big difference. 70 versus 65. 70 is one 
thing, but when you start talking about 65, that would stop 
Nucor from growing, period. There just wouldn't be any way we 
can get down to the levels we need to, as far as expanding.
    Does Mr. Baker alluded to 70 offers some flexibility, but 
again, it's just the challenge to figure out how we would get 
there and where those offsets would come from.
    1.8 million people in Nebraska. We do have some industries 
in Nebraska, but unfortunately it would be hard to come up with 
where those offsets would come from, no matter where it is in 
the State.
    Senator Fischer. You know, a lot of times I hear about, you 
know, rules and regulations, how burdensome they are. Can you 
tell me any current rules, regulations out there, if you have 
to go through a permitting process, to expand, what's the 
effect of that? You know, I can speak to environmental impacts 
statements with road building, they can last 6 to 8 years. We 
have a case where one lasted 19 years to go through, what kind 
of permitting process do you have to go through with your 
company, and what are we looking at for a timeframe there?
    Mr. Kinter. Sure. We're what you would call a class one 
major source of Nebraska. There's very few, I think there is 20 
or so on that list. And we go through a process called new 
source review and the prevention of sedimentary program and the 
also the Title 5 operating permit process--the Title 5 
operating permit process and in private business, we don't have 
a whole lot of patience, of course, and there's always 
opportunities for us to get better with project planning and 
working with the State agencies to get the permits.
    But as an example, when we went through our recent 
expansion here, about 2 years ago, it took us approximately 15 
months to get our most recent air quality permit. Typically, 
EPA and even DEQ will say 12 to 18 months for that process to 
happen. We're concerned that if we move into these lower ozone 
ground-level numbers we're talking about, and nonattainment 
specifically, who knows how long it would take. Because you're 
looking at what they call a lowest achievable emission rate 
technology, which is, again, back to this whole technology 
thing that we don't even know what that is right now on an 
electric arc furnace. So to go in with a new permit to try to 
talk about some technology that doesn't even exist yet to get 
to us where the levels we need to be, we don't know how we 
would do it.
    So yes, it's a--the permitting process right now that we 
have in place takes time. Again, the DEQ here, specifically in 
Nebraskans, been great to work with, been a great, you know, to 
work with over the years. But again, this uncertainty and then 
moving into these new levels that we're talking about and the 
process it would take to get there, not to mention EPA 
oversight on all of our permits, which is what we have, we may 
never get a permit.
    Senator Fischer. Does the EPA ever account for costs in the 
permitting process? Do they ever consider that, or is that just 
up to you?
    Mr. Kinter. Well, again, when we're talking specifically 
about establishing ambient air quality levels such as the 
ground-level ozone, EPA is required to do a cost benefit 
analysis. And the recent case ruling that came out in regards 
to EPA not specifically doing that cost benefit analysis, I 
think, came back to haunt them a little bit.
    And again, that's where our concern is with this one as 
well is that where is the cost benefit analysis and are we 
really getting enough bang for our buck, quite honestly, to--in 
having the healthier air and citizens being more healthy. We're 
not--we don't see that correlation, quite honestly.
    Senator Fischer. OK. Good lead in for my question, thank 
you very much. Good lead in for questions for Dr. Corbin. And 
again, thank you so much for being here. I appreciate your 
testimony.
    Mr. Corbin. I feel a little alone.
    Senator Fischer. That's what happens when you're a minority 
witness, so. No, but I'm very, very happy that you're here. I 
appreciate your views on this, sir.
    The EPA concludes that long-term exposure to ozone likely 
causes respiratory mortality based on a single study, and you 
mentioned that I believe the Jerrett 2009 study. Did you 
mention that in your testimony?
    Mr. Corbin. No, I mentioned the Lancet study.
    Senator Fischer. The Lancet study, OK. The study that I 
have here was a Jerrett 2009 study, and that study found that 
there was an association between long-term ozone exposure and 
mortality caused by respiratory diseases, but it--but not in 
southern California where the highest ozone concentrations in 
the country occur.
    That didn't make any sense to or for me. Wouldn't it make--
wouldn't it make sense that there would be an association found 
where we have the highest ozone concentrations exist?
    Mr. Corbin. Yes, that's a 2000--I'm not familiar with that 
study.
    Senator Fischer. OK.
    Mr. Corbin. But there's been plenty since then that don't 
say that. And I might just want to respond a little bit because 
I've been attending OPPD meetings for at least 3 years now on a 
regular basis, their board meetings. I'm familiar with their 
goal for renewables with 10 percent, and now I'm very proud to 
say because of people have gone before OPPD and tried to make a 
case for renewables, that they've--that they are going to close 
down those units and change to coal and that we also live in a 
different environment in terms of how the--we're part of the 
Southwest Power Pool here and OPPD and so when people talk 
about, you know, businesses, the fastest growing business in 
the United States and, indeed, in most of the world is 
renewables. And that's what's creating most the jobs.
    Companies like Facebook and Google are going a hundred 
percent renewable energy and they'll--the reason they're going 
to Iowa instead of Nebraska is because Iowa has higher 
renewable energy and they also have a lower rates than we do in 
Nebraska. So higher renewables; lower rates. So better health.
    Warren Buffett is--Berkshire Hathaway Energy is heavily 
invested in that, and who here wouldn't want to say that after 
Fukushima that we are glad that there are regulations on our 
nuclear plants to make sure that we are all safer and that we 
don't have a terrible incident like they did there. That's when 
Federal regulations are at their best.
    I can't deny that there are rules that sometimes don't make 
sense, that's what we need to do is make--make those so that 
they really work and that--but to use your--what you were 
saying earlier, that California hasn't been in compliance, so 
why is everybody worried about everything when everybody can 
get extensions time and time again. OPPD's had extensions on 
certain things.
    So, if anything, you could argue the EPA is too weak 
because they keep giving groups and all kinds of things 
extensions. And then, of course, the air is--the air that we 
all breathe, and so you've already talked about the fires and 
all of those kinds of things.
    So it is something that we're all in it together. And as I 
said to Russ before we started, we're not adversaries, we want 
the same end. We just disagree, somewhat, on how fast and when 
and what the best ways to get there.
    So I think that there's--there's--we certainly are making 
progress in a lot of this from a public health point of view. I 
don't think the progress is fast enough; obviously, there are 
people who differ in that opinion.
    But I think there's a lot of evidence to say--and I know 
some people don't like to hear the word climate change, but the 
fact is it's not a belief. It's real. And it is those things 
that we are talking about renewable energies and all of those 
things that are going to hurt the State more if we don't do 
something now.
    Senator Fischer. I've been looking at the Clean Power Plan 
regulations that have been finalized and you mentioned Iowa and 
perhaps Nebraska has lost some business opportunities here in 
the State because of the less expensive energy electricity in 
Iowa.
    Iowa joins Nebraska as being one of the 10 biggest losers 
under the Clean Power Plan, and Nebraska, I always say, that 
that means that the people of Nebraska are the losers because 
we do have public power in this State.
    But in Iowa, I'm just amazed--and I'm off topic here, I 
fully admit that--but I am amazed that they would be listed 
under this Clean Power Plan as one of the 10 biggest losers 
because of their wind development. And it just, to me, it shows 
how bizarre some of these rules and regulations are that come 
out because they don't get credit for that.
    So being a Nebraskan, I'm kind of hopeful that we're going 
to see businesses come to the State of Nebraska for our less 
expensive electricity because Iowa doesn't get any credit.
    Mr. Corbin. That's one----
    Senator Fischer. So I mean----
    Mr. Corbin. That's one time when I would agree that the 
rules don't make sense.
    Senator Fischer. Yes, it's just bizarre.
    Mr. Corbin. You don't get credit for what you've already 
done.
    Senator Fischer. Exactly, no, I do fully agree with you, 
you know, that we're all here to work and make sure that we do 
have clean air, clean water in this State. It's a valuable 
resource, so it, you know--to find ways that we can work 
together and continue to have an open dialog and respect, I 
think that's very important.
    Mr. Corbin. And that bureaucracy, by the way, runs both 
ways. So to try to get a permit in some places in Nebraska to 
put solar panels on your home, in some places it's multi-page 
this and that, and you have to have--if it's a hot water, you 
have to have a steam fitter and water doesn't get hot enough 
for a steam fitter and electricians have to come and approve it 
and an electrician may or may not know anything about solar. So 
those--I'm all for----
    Senator Fischer. You and I can work on some issues here.
    Mr. Corbin [continuing]. Streamlining the rules and making 
them as simple as possible.
    Senator Fischer. No, I agree. And both wind development now 
and the siting and the building of transmission lines, there's 
a lot of my neighbors and friends who are upset about the 
process there. So there's--there's always challenges. There's 
always challenges that we're going to----
    Mr. Corbin. And public health, I mean, when aren't they? 
Did the automobile industry say please let us put seat belts 
and air bags into cars? That's nothing more that we would 
remember do, but we did it, people are safer and the roads are 
safer.
    Senator Fischer. If I can ask you some specific questions 
with your credentials and background with public health if you 
would know these for me, the answers.
    Do you know how many asthma attacks in children nationwide 
would be prevented if we lower that ozone standard? Do you have 
any information available on that?
    Mr. Corbin. I believe it's in the--in one of the documents 
that I did that I handed in, but I don't have the exact, but 
there are plenty of organizations that have computed that and, 
of course, it is an estimate.
    Senator Fischer. Right.
    Mr. Corbin. But they all agree that it would definitely go 
up. And that's when you get into the argument about what's--how 
many kids deaths are acceptable and how many aren't.
    And so like I said, all of these organizations that are on 
this one letter to President Obama trying to urge the ground-
level ozone level to be more strict, they have studied this 
extensively.
    Senator Fischer. OK. And do you know how many studies were 
done and that the EPA looked at between the association between 
the ozone and asthma symptoms when they did their integrated 
some kind assessment, do you know how many studies they looked 
at?
    Mr. Corbin. I do not. I would, again, put most of my--the 
most respected one that I've seen that's come out is a very 
extensive report and it not all about ozone, but that's the 
Lancet report which came out this year in June.
    Senator Fischer. I had information that there were 33 
studies and only 12 of those found an association between ozone 
and asthma symptoms, can you address that?
    Mr. Corbin. I can. I cited my experience with working on 
tobacco issues. We heard the same thing, how do you know it's 
tobacco that's causing cancer and not the air pollution, the 
mold in your house, and all of these kind of things? It is 
complicated.
    But there's no evidence, that I know of, that says adding 
ozone will make your asthma better. It almost--it won't make 
everybody's worse; but it will make a lot of people's worse.
    Senator Fischer. OK. I just wanted to point that out for 
the record that in the 33 studies, there were 12 that found an 
association between the ozone and asthma symptoms. And this was 
from the EPA with their integrated science assessment.
    Mr. Corbin. Remember the ozone goes with the other 
pollutants that are coming from some of the same sources, so.
    Senator Fischer. Right.
    Mr. Corbin. They go together.
    Senator Fischer. Right. Well, thank you so much. Appreciate 
you being here today.
    Mr. Corbin. Thank you.
    Senator Fischer. Mr. Zimmerer, again, I thank you for your 
testimony on Federal regulations and the impact that they have 
on businesses and how they affect growth, economic growth in 
our communities, which in turn affects all of our families here 
in the State of Nebraska.
    I know that local businesses work hard to provide their 
communities with jobs, they have public service support and, of 
course, everyone tries hard to protect the environment, it's a 
priority it for all of us.
    You mentioned in your testimony that the ozone standards 
considered in the EPA's proposal would impose real and 
immediate hardships to the American worker. Can you tell me 
what you mean about that?
    Mr. Zimmerer. Absolutely. And I think my colleagues to my 
right also mentioned these in their statements, but just 
talking about the capital investment needed for companies to 
come into compliance. Great companies like Nucor Steel, they 
have to invest capital in these projects where, in fact, they 
could be invested in increasing their goods and services and 
increasing their market to create jobs that will put more taxes 
in our communities, tax dollars in our communities, to pay for 
those community service programs that help enhance the lives of 
our neighbors.
    Senator Fischer. So this--obviously, you believe then that 
this proposal would have a really large ripple effect, then, 
throughout a local community in the workers that live there?
    Mr. Zimmerer. Absolutely. You know, when we're talking 
about a large tax base, you know, those taxes are divvied up 
amongst many programs and services, but some of those expenses 
will have to come out of that. The State burden for these types 
of regulations will trickle down to the city, and in that case, 
programs will have to be cut, services will have to be cut. 
And, you know, I would hate to be at the city council chambers 
when I have to decide which one of those programs is more 
important than the other.
    And so I think that's where I look at it from a city 
perspective as well is we need to do this in a balanced 
approach. And I understand the doctor here, and I was going to 
give him a hug when he wasn't feeling loved.
    But you know, we have to do it with balance. And that's 
what I ask for. We can't have EPA acting as its own form of 
government; it is an agency to be controlled by, you know, by 
the people, and when I hear, you know, 14 State Governors wrote 
in a letter with concerns that, you know, bring us to the table 
when we're discussing this. Help us help you get to where the 
doctor wants to be, you know. That's--that's what we want. We 
just want balance. We can't have one without the other. So to 
be successful, we have to work together.
    Senator Fischer. We talked about a little bit earlier when 
I was interrupting to ask questions, but the EPA updated their 
ozone standards in 2008 and you mentioned in your statement the 
EPA delayed implementing the 2008 ozone standard for 2 years 
while it pursued reconsideration, and so States are just now 
catching up with implementing that standard.
    Particularly, since the EPA proposed implementation rules 
for the standard, I think it was just this past December; is 
that correct?
    Mr. Zimmerer. Correct. Correct.
    Senator Fischer. Now, the EPA is proposing new ozone 
standards that are going to overlap those 2008 standards, so 
how does the--how does the delay in implementation challenge 
local communities, local businesses when they're tasked with 
putting together a plan in order to meet the new--the new 
standards coming when they're still working on the old ones, 
where does that put businesses?
    Mr. Zimmerer. Right. Well the bad part about presenting 
last is John pretty much answered that question. That 
uncertainty in the life of businesses is chaos. It leads to 
more expenses. It leads to inefficiencies in management and, 
obviously, that does have a ripple effect.
    And I think the States are experiencing the same thing, 
that's why the Governors are so concerned about it.
    So we are managing, you know, we weren't quite sure where 
we were going to go and now we're sure again, but yet we're 
going to add more uncertainty by bringing it to the 70 or 65 
level, that's just absurd.
    Senator Fischer. So when you're working on implementing the 
standards, what, do you have a partnership with the State 
Department of Environmental Quality? Are you working more with 
the States since they're trying to implement the EPA's rules; 
is that true?
    Mr. Zimmerer. Well, you know, just and----
    Senator Fischer. I guess I'm saying instead of directly 
with the EPA, you're working more with the State level, right?
    Mr. Zimmerer. Absolutely. I'm starting at the city level. 
I'm working with our partners at Nucor Steel, you know, how can 
we make them better? How can we improve the quality of services 
they provide in their work? How can they make the environment 
better? And I'm doing that with all of our businesses.
    But this is just one example of, you know, everybody--like 
said in my statement: We're breathing the same air. We all want 
what's best. The ozone levels continue to decrease, so let's 
see where they go. And then we can have time to study. We can 
see what that--what that foreign pollutants are doing to our 
ozone. We can tell what the fires are doing to it. We can do 
more studies on how it affects asthma in children.
    But, you know, these things need further study. And I think 
my two gentlemen to my right said, you know, they don't even 
know how to get to where they want to be. So if we don't have 
any ideas of how to get there, then we are putting the cart in 
front of the horse.
    Senator Fischer. You know, I understand and hear from our 
utilities. I hear from large businesses who know about these 
proposed rules or final rules, as the case may be, when they 
come through, what about our Main Street businesses, our 
smaller businesses that truly are, I believe, the life blood of 
our communities around this State from, you know, from Omaha to 
Valentine? It's our local folks that are, you know, working 
hard. Are they aware in your position with the Chamber? Are 
they aware of what may be coming and do they have any idea of 
what's--what the effect will be?
    Mr. Zimmerer. Well, I think some of them like to--suffer 
from the ostrich hiding, you know, his head in the sand and--
but, you know, it's my job as the chamber president to educate 
them on the possible consequences of such regulation. And I 
think Russ mentioned that, you know, were looking at a 30 
percent utility increase, that is significant.
    I mean, we are super conservative here in Nebraska. We all 
know that and, you know, we beared the recession pretty well. 
We're not out of it by any means, but we did that because we 
keep our costs low, you know. We're conservative. We don't 
spend over and above what we can. And so to add this 30 percent 
cost onto these already burdened businesses will have 
significant costs.
    Senator Fischer. When we had talked earlier if an area has 
to go into a nonattainment classification and is then able to 
reach attainment, what's the process there that the EPA 
follows? Is there a certain number of restrictions that have to 
be in place for a designated time period or is it just lifted 
and growth can continue, you can continue building roads, you 
know? How does that work? And what's the time period from the 
nonattainment to attainment to being able to grow again?
    Mr. Zimmerer. The time period is unclear, other than what 
I've mentioned as far as how it affects our roads and 
infrastructure that way.
    But, you know, once an area comes into attainment, they 
have to--they have to put in a plan of action with the State--
through the State and then through the Federal Government to 
stay and remain in that action, or in that attainment area, and 
that can be significant because what they're going to be 
looking at is new businesses, new industry coming in there that 
are going to have ozone emissions.
    And to be honest, even if you go back from out of 
attainment to attainment, there are businesses, businesses like 
to be conservative as well, they like to have the facts and 
uncertainty about whether they can fall back into that area of 
compliance, really is going to prohibit them from creating new 
businesses or growing in our--in that particular area. And 
that's probably the scariest part is they're just not going to 
do it. And what's really scary is, I think to John's point, is 
they're going to do it in other countries.
    Senator Fischer. So you believe that even when restrictions 
are lifted, it's really going to be hard to encourage 
businesses to come to an area that's been in a nonattainment 
classification?
    Mr. Zimmerer. Yes, I guess I would have to think the EPA's 
got a mindset and say I really don't know what's going to 
happen. You know, but let's just do it anyway. I don't want to 
go that approach. It doesn't make sense. We have to know what 
the consequences are, how we're going to get there before we 
can put these restrictions in place.
    Senator Fischer. OK. I would like to ask you all just a 
couple questions here for closing.
    First of all, how do you view EPA regulations--and we've 
touched on this--but how do you view EPA regulations when we 
look the economic growth for our communities and for our State? 
If you have an opinion on what kind of impact they have--and 
we've touched on that somewhat--but I would like to just hear 
any closing comments you may have on that.
    Mr. Baker. I have some comments that I would love to make 
on that.
    You know, we're not opposed to EPA. You know, I have a 
recollection of EPA being created because we have rivers that 
were catching on fire, we had open dumps that were in people's 
backyards that were contaminating groundwater, that were 
contaminating drinking water for many communities. I mean, it 
was necessary, and some would argue maybe even overdue at that 
point.
    I think what I'm feeling and maybe what my company and my 
industry are feeling right now is just, you know, we've taken 
care of maybe the largest percentage of big problems. We don't 
have rivers that are catching on fire. We don't have open dumps 
that are out there. We, you know, we have mechanisms and 
processes and permits that are in place right now that really 
have improved our environment.
    And I don't think anybody in the United States--and I would 
argue maybe even worldwide--would want to have a perspective, 
well, we're going to go out and destroy the environment. We 
want to preserve our natural resources and we want to use them 
as good stewards of the land that, you know, that we're--that 
we have communities in.
    So we support preservation and enhancement of natural 
resources and that. I think, and I go back to maybe a little 
bit of some of my comments that I provided earlier, you know, 
we're now--now that we've taken care of a lot of really big 
issues and have really improved the situation across our Nation 
with these laws. Now, what we're facing are--we're facing 
energy policy that's being enacted through regulation.
    So trying to change the whole source, at least from the 
energy perspective, of how you're going to generate 
electricity. Not what limitations you should have on conducting 
commerce, but actually transforming the country through 
regulatory process.
    And we're also maybe down on the tail end where some of 
these regulations, you don't have a direct cause and effect of 
ratcheting the standard lower or limiting an emission further 
or pushing for technology development that is very, very costly 
and may have very marginal benefit in the long term. That's the 
part I think that, at least from my company and maybe from 
electric utility perspective in the State of Nebraska, that's 
the part where we have problems.
    There's a lot of unknowns, a lot of uncertainty that, you 
know, we tried to express to you in our testimony and that, 
marginal benefit for what could be a very extreme cost and 
really not for the sake of improving the environment in the way 
that I think Congress foresaw EPA and the creation of EPA to 
do. So that's kind of my perspective, Senator.
    Senator Fischer. Thank you.
    Mr. Kinter. No doubt that there was and there still is a 
need for EPA regulations, I don't think anybody will disagree 
with that.
    We are reaching a point of diminishing impact and return on 
these rules to the point where it's hard to run a business 
because of the scrutiny we have with our permits and how we're 
required to operate our facilities. Much more hands-on approach 
now, and as Russ alluded to, we're getting much more detailed 
in our permits.
    So definitely a need for EPA to be there. We've had a great 
relationship with EPA over the years and working through 
issues, but where do you draw the line between, you know, the 
American way and being able to operate your company the best 
way possible, and still being in compliance and the definition 
of compliance continues to change?
    Senator Fischer. Thank you.
    Mr. Corbin. I used to teach high school right outside 
Washington, DC, at Bladensburg and I would take my students to 
the EPA for field trips. As you know, the EPA started under the 
Nixon administration, and I agree with all the reasons why it 
was created because we did have rivers catching on fire and we 
had smog that was worse than it is today, and I guess the 
argument would--it is--the critical thing is where you draw the 
line.
    And the way I understand right now with the Clean Power 
Plan also is that the States have the opportunity to submit 
their plan. I would encourage Nebraska to do that and to work 
with all the people to create that plan. Not to let it go to 
the Federal Government and say you're not going to create your 
own plan, so we're going to create it for you. That's exactly 
what people have been arguing against, yet the way I understand 
it, too, we--we've filed a lawsuit saying it wasn't even a good 
thing to do.
    So the EPA is good. Like I've said before, there are times 
when any law--and the reason why we don't just have one session 
and then say, oh, well, the laws are done is because we try to 
improve upon them as time goes on.
    The question is: What is the improvement and what side does 
it fall toward? And, obviously, being in public health, I'm 
most interested in the public--in preserving the public's 
health, which I think a lowering of the standard would do.
    Mr. Zimmerer. Yes, EPA, it is a need--it's needed here in 
the United States and I believe that, you know, when we talk 
about that balance, and I've said that more than once today, 
that's what we're looking for. We're looking for, you know, 
with the economy and with our public health and--you know, I 
agree with the doctor here. But there are other health 
consequences. If we're taking money out of families' pockets, 
we know what they are, they have higher rates of depression, 
they are higher rates of obesity, they have--don't receive 
appropriate medical care, and I could go on and on. And those--
that isn't coming from research, that's coming from my personal 
experience in dealing with these families and working with 
them.
    And so that's, I think, you don't always have to--you know, 
you also have to balance economy with health, but you have to 
look at all aspects of health as well. So that's where I leave 
that.
    Senator Fischer. OK. Thank you. As we conclude the hearing 
today, I want to, again, expression my gratitude to each of the 
witnesses for testifying. We were privileged to hear from a 
group of Nebraska stakeholders who provided details on the 
challenges faced by businesses, families and communities as the 
Administration finalizes the proposed rule to lower the ground-
level ozone standard.
    Nebraska is unique. We are the only 100 percent public 
power State in the Nation. We own the electricity that is 
generated and consumed within our borders.
    Nebraska is also blessed to have a robust manufacturing 
industry and small business community, and these are important 
assets that create jobs, ensure that our rural communities and 
municipalities continue to thrive.
    Currently, Nebraska has zero counties in nonattainment; 
however, under the proposed rule, 57 Nebraska counties will be 
classified as being in nonattainment, and many of these 
communities are in rural and primarily agricultural areas.
    Furthermore, or the EPA's modeling and data, interpretation 
cannot verify that tightening the ozone standard will result in 
health benefits. So I have serious concerns about the impact of 
the proposed rule and what it will do to impose on small 
businesses and energy-intensive businesses and industries some 
really, I believe, negative impacts.
    It is clear that imposing additional rules and permitting 
requirements on our utilities and job creators will only stifle 
economic growth and drive up the costs of important projects. 
We should not be in the business of creating unnecessary 
regulations that generate more red tape. Instead, we need to 
explore policy options that promote growth and enable our job 
creators' communities and our families to prosper.
    So I look forward to utilizing the insights that I received 
from all of the stakeholders here today at this hearing to do 
exactly that.
    Again, I thank you, the witnesses, for appearing today. And 
the hearing is now adjourned.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
